HHS/OIG - Audit, "Review of Arkansas' Participation in Title IV-B, Subpart 2 of the Social Security Act, Promoting Safe and Stable Families for Fiscal Years 1994 through 1999 (A-06-01-00068)
Department of Health and Human
Services
Office of Inspector General -- AUDIT
"Review of Arkansas' Participation in Title IV-B,
Subpart 2 of the Social Security Act, Promoting Safe and Stable Families for
Fiscal Years 1994 through 1999," (A-06-01-00068)
September 21, 2001
Complete Text of Report is available in PDF format (530
kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Arkansas
Department of Human Services, Division of Children and Family Services
(DCFS) participation in Title IV-B, Subpart 2 Promoting Safe and Stable Families
Program in fiscal years (FY) 1994 through 1999.  The objectives of our
review were to determine: (1) the reasons why DCFS did not use all Federal funds
for the Promoting Safe and Stable Families Program and (2) if DCFS met its cost
sharing requirements. The DCFS did not use $3,658,873 in grant awards from FYs
1994 through 1999. This occurred because DCFS did not take full advantage of
the funding available in FY 1994 for planning and developing its Promoting Safe
and Stable Families Program. The DCFS did not spend any grant funds available
at the inception of the program. Instead it was not until the second year of
the 2-year grant before any funds were spent. This pattern of not spending funds
until the second year of the 2-year grant period has continued and currently
still exists. The DCFS officials explained that a combination of factors made
administering the program difficult and contributed to the States spending
patterns and resulting unobligated balances. These factors included operating
with an outdated accounting system, difficulty contracting and procuring services,
and the disbanding of the Family Preservation Unit. Based on the information
provided by DCFS officials, DCFS met its required 25 percent State cost match
for FYs 1994 through 1999.